No. 20-886
IN THE SUPREME COURT OF THE UNITED STATES
_________________
THELMA G. MCCOY, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 7th day of May, 2021
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,347
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
May 7, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 7, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0886
MCCOY, THELMA G.
UNITED STATES OF AMERICA
WILLIAM R. CORBETT
CENTER FOR RESPONSIBLE LENDING
302 W. MAIN STREET
DURHAM, NC 27701
919-313-8544
WILL.CORBETT@RESPONSIBLELENDING.ORG
KELSI BROWN CORKRAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, N.W.
WASHINGTON, DC 20005
202-339-8400
KCORKRAN@ORRICK.COM
DANIEL ADAM RUBENS
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 W 52ND STREET
NEW YORK, NY 10019
212-506-3679
DRUBENS@ORRICK.COM
TARA TWOMEY
NATIONAL CONSUMER BANKRUPTCY
RIGHTS CENTER
1501 THE ALAMEDA
SUITE 200
SAN JOSE, CA 95126
831-229-0256
TTWOMEY@ME.COM

VIA EMAIL

CARTER C. WHITE
KING HALL CIVIL RIGHTS CLINIC
U.C. DAVIS SCHOOL OF LAW
ONE SHIELDS AVENUE, BLDG. TB-30
DAVIS, CA 95616
530-752-5440
CCWHITE@UCDAVIS.EDU

